                                                                               January 15, �333




 MEMORANDUM FOR: D-AA/M, Richard C. Nygard,
                  Acting Chief Information Officer

                                    Tony
                             Acting Chief Financial Officer

 FROM:                      Theodore P. Alves, Director

 SUBJECT:	     Audit of the Process Used by         to Develop Financial Statement
               Information for Its Credit Programs (Audit Report No. A-000-99-001-F)


 This is our final report on the subject audit. We reviewed your comments to our draft report
 and have included them in their entirety as Appendix II. The report contains one
 recommendation requesting that an investment analysis be performed to determine near-term
 alternatives for reducing credit program-related barriers to preparing        annual financial
 statements..

 Although your comments agreed in             with the report’s recommendation, they did not
 fully address the need for an investment analysis. Accordingly, we believe that a management
 decision has not yet been made to address the recommendation. Please provide this office
 with your final management decision on Recommendation No. 1 within 30 days of the date of
 our report.

 Thank you for the cooperation and assistance extended to our auditors during this assignment.

 Background
 Since fiscal year 1996,         has been required by the Government Management Reform
 Act (GMRA) to compile                  financial statements and supplemental information and
 have the information audited by the           Office of the Inspector General (OIG). These
 financial statements report          financial position and results of operations, and also
 provide further information allowing Congress and the public to assess management’s
 performance and stewardship of           resources. Accordingly,            management’s
ability to develop and maintain adequate internal controls, accounting and financial
 management systems, and procedures to generate reliable financial statements is critical to the
 success of           annual reporting.
         is a decentralized organization with missions and accounting centers spread around the
world. To better manage its decentralized operations,             deployed the New Management
System          on October � 2�$$y-2� ��was designed to replace aging and ineffective
computer systems--called legacy systems--used to perform accounting, budgeting,
procurement, and performance measurement functions. It was also designed to be the primary
system for conducting             business, recording accounting events and transactions, and
preparing financial and management information. Once deployed, however, NMS did not
operate effectively and            had to continue to rely on some of its non-integrated legacy
and informal, locally-developed financial management systems to record and process financial
transactions. Thus,           relies on a combination of NMS, legacy systems, and informal
systems--called cuff records--to maintain its accounting records and generate financial
management information.

A large portion of            development assistance funding has been used to provide loans
and credit guarantees under five programs. The five credit programs are: ��12 Direct Loan
Program, (2) Urban and Environment Program, (3) Micro          Small Enterprise Development
Program, (4) Ukraine Export Credit Insurance Program, and (5) Israeli Loan Guarantee
Program.             June 30, 1998 interim financial statement reports that the credit program
receivables line item account balance totaled $7.3 billion and the credit program fund balance
with Treasury line item           $1.8 billion. These balances represent 42 percent of the total
assets reported on            financial statement. Accordingly, the generation of reliable and
consistent financial information for the credit programs is a critical part of the development of
          annual financial statement.

The Office of Financial Management’s Loan Management Division                      is responsible
for maintaining the accounting records for            five credit programs. The Office of
Financial Management’s Office of Central Accounting and Reporting (M/FM/CAR) is
responsible for combining credit program balances with other            financial information
and for preparing          annual financial statement. The Chief Financial Officers Act of
1990 assigns overall responsibility for developing and maintaining integrated accounting and
financial management systems to the Chief Financial Officer (CFO).

Audit Objective
Our audit was conducted to support the           audit of           fiscal year 1998
statements--as required by the GMRA. Our audit sought to define the flow of data and to
identify barriers to the production of audited         financial statements because the flow of
data through the credit programs to            financial statements had been an undefined and
undocumented process. The objective of our audit was to answer the following question:

       How does information flow through the financial management systems used by
               credit programs to          financial statements?

A full description of the scope and methodology is contained in Appendix I.

                                                2

Summary of Results
Credit program data follows a complex, largely manual process before being incorporated into
          financial statements. Source data is primarily generated from eight different types
of            and five formal agency information systems. The data is then manually
extracted and recompiled several times, using over 30 different informal spreadsheet systems
developed by credit program managers, before being incorporated into              financial
statements.

This complex flow of information creates several barriers to the production of audited
financial statements and the development of useful financial management information. The
multiple entries of similar financial data is inefficient, increases the risk of incorrect data
appearing in            financial statements, increases the time and staff resources needed to
generate financial statement information, and increases the amount of audit testing needed to
determine whether the statements are fairly presented. Although                managers have
recognized the financial system deficiencies and are implementing corrective action plans, the
problems are not expected to be overcome until 2001.

In the meantime, near-term alternatives that might reduce the existing barriers have not been
analyzed. For example,           could consider (1) linking its numerous informal spreadsheet
systems to automatically generate trial balances and consolidated working trial balances or (2)
purchasing inexpensive, commercially available off-the-shelf software packages, which might
be adaptable to integrate the numerous credit program general ledgers and automatically
generate financial reports. Given the potential for increased efficiencies in the credit
programs, we recommend that              perform an investment analysis of near-term
alternatives to determine whether they offer a cost-effective way to reduce the barriers to the
production of credit program            information.

Until an effective              integrated financial management system is adopted by
         poor policy decisions are more likely to be made due to inaccurate or untimely
information; managers are less likely to be able to report accurately to Congress; and scarce
resources are more likely to be directed toward the collection of information rather than to the
delivery of the intended programs.
Flow of Information Through
Credit Programs to the Financial Statements
The source of financial information for             five credit programs comes primarily from
eight’ different types of documents and        separate legacy financial management systems.
A limited amount of information also comes from NMS. Staff from                   manually
record data from these documents and systems into journal vouchers, which detail the impact
that accounting events and transactions have on credit program accounting records, including
debits and credits to specific accounts. The information contained in the Journal Vouchers is
then manually entered into 32 informal, locally-developed credit program general ledgers
(maintained on Lotus l-2-3 spreadsheets). The general ledgers maintain current account
balances for the individual appropriations that make up each program.

Quarterly, the account balances from the individual general ledgers are manually recorded in
trial balances, which are also maintained on Lotus 1-2-3 spreadsheets. Trial balances act as a
partial check of the accuracy of general ledger account balances by ensuring that debit and
credit balances match. The individual trial balances are then combined into Consolidated
Working Trial Balances. These Consolidated Working Trial Balances combine individual
account balances for different appropriations under the same credit program into one balance
for each of           five credit programs. The account balances listed in the five
consolidated working trial balances are then incorporated into a              working trial
balance and into            financial statements by M/FM/CAR

A summary of the entire flow of information through the five credit programs is outlined on
pages and 6. A more detailed description of the flow of data through each of               five
credit programs, as well as individual credit program flowcharts is presented in Appendices 3
through

As illustrated in the diagram on pages and 6, the flow of data is relatively straight-forward
for some         programs and rather complex for others. For example, data for the Israeli
Loan Guaranty Program is straight-forward, coming from one primary source (i.e., Treasury
Ca$h Link Reports). Data from these Treasury reports is recorded in journal vouchers and
then posted to a general ledger.




      The eight primary documents include subsidy calculations reports, claim reports, Ca$h Link reports, TFS
      SF       Cash Disbursement Reports,          of Charge, and MACS           reports.

      The five systems include the Housing Guaranty Portfolio Management System, the Cash Journal, the New
Management System, the Loan Accounting Information System, and the Performance Monitoring and Control
Information System.

                                                     4
The flow of data for the Urban and Environment Program, however, is much more complex.
Data for this program comes from a variety of sources including several different financial
management systems (e.g., the Housing Guaranty Portfolio Management System, the Cash
Journal, and the New Management System),                      documents (i.e., SF
Statement of Transaction Reports and          of Charge), and Treasury reports (i.e., TFS
                    Appropriation Account Ledger Reports).

 Once collected, data from the different systems and source documents is manually entered into
journal vouchers, manually re-entered into one of several general ledgers, and then transferred
to trial balances, which in turn are consolidated into a working trial balance for each credit
program. At this point, the working trial balances for each program are incorporated into the
         working trial balance which is then used to prepare the financial statement.

A brief description of the data sources and accounting process illustrated on the previous page
is discussed below.

     Source Documentation

The data flow through the credit programs begins with source documents obtained from
several different sources. Some source documentation is received from the Department of
Treasury (e.g., TFS 6653 and           Link reports); some is generated by a variety of
financial systems (e.g., the Housing Guaranty Portfolio Management System, the Loan
Accounting Information System, and the New Management System); and some is received
from outside of           (e.g. claim documents).

     Journal Vouchers

After source documents have been received and reviewed (and sometimes reconciled with
other information),             staff determine what effect each transaction and event has on
           accounting records and how that information should be entered into
financial records. A journal voucher is then manually prepared to document how the
transaction or event will be recorded, including the accounts to be debited and the accounts to
be credited. Each Journal voucher is a paper document that lists the accounting changes that
need to be recorded in            accounting records.

     General Ledgers

After journal vouchers have been prepared, the listed accounting changes are manually entered
into a general ledger. There are 32 credit program general ledgers. The Ukraine Export
Insurance Program has two general ledgers; the Israeli Loan Guarantee Program has one; the
Urban and Environment Program has �( 2the Direct Loan Program has two, and the Micro
Small Enterprise Development Program has �3-2The general ledgers are maintained using
informal, locally-developed Lotus l-2-3 spreadsheet applications. Each general ledger keeps
track of annual appropriation balances for one of three types of credit program accounts: ��1
program, (2) financing, and �(12 liquidating. Program accounts contain appropriations to cover
the cost of direct loans or loan guarantees while the financing and liquidating accounts include
the cash flows to and from the U.S. Government resulting from direct loan obligations or loan
guarantee commitments made on or after October � 2�$$�2and prior to October � 2�$$2�
respectively.

      Trial Balances

On a quarterly        account balances from each credit program general ledger are manually
recorded in a trial balance. The trial balances, which are also maintained on
developed Lotus �44(2 spreadsheets, act as a partial check of arithmetic accuracy by ensuring
that general ledger accounts with debit balances equal general ledger accounts with credit
balances.

      Consolidated                Trial Balances For Each Program

After trial balances for each credit program general ledger have been prepared, account
balances recorded in the trial balances are manually posted to and summarized in a
consolidated working trial balance. Consolidated working trial balances in the form of Lotus
�44(2 spreadsheets are prepared for each of the five credit programs and serve as a way to
summarize financial information for each credit program.

                  Consolidated Working Trial Balance

After consolidated working trial balances have been prepared for each credit program, the
summarized account balances from these trial balances are compiled and recorded in
Consolidated Working Trial Balance. This working trial balance summarizes financial
information from all of           activities.

                  Financial Statement

After          Consolidated Working Trial Balance has been prepared, the summarized
account balances from it are manually transferred to and presented in       Financial
Statement.




       The Loan Management Division reconciles and posts data to the general ledgers on a monthly basis. Formal
trial balance reports are compiled quarterly.
Barriers to the Production of Financial Statements
Several barriers related to the flow of information through             credit programs adversely
affect the production of            annual financial statements, including:

       Similar accounting data must be manually re-entered multiple times into different
       financial management systems because the systems are not linked to or integrated with
                 primary accounting and financial management system;

       Credit program financial reports can not be queried at the transaction level or against
       prior year information; and

       Credit program general ledgers are manually kept using Lotus l-2-3 spreadsheets,
       which creates significant data integrity risks.

These barriers, each of which can be linked to          lack of an effective and integrated
financial management system, are discussed in more detail below:

     Credit Program             Are Fragmented

Office of Management and Budget (OMB) Circular No. A-127, Financial Management Svstem
Requirements, calls for financial management systems to eliminate unnecessary duplication of
transaction entry, and wherever appropriate, enter data only once and update other parts of the
system automatically. Joint Financial Management Improvement Program requirements add
that a core financial management system must be able to process transactions originating in
other systems, recording and keeping track of such transactions and related information, in
order to provide the basis for central financial control.

However, credit program systems do not meet these requirements. Instead, credit program
financial data must be repeatedly re-entered into multiple locally developed systems because
the systems are not linked to each other and do not interface with NMS,              official
accounting and financial management system. Although the AID Worldwide Accounting and
Control System (AWACS), an NMS subsystem, was designed to maintain credit program
accounting data and automatically generate general ledger, trial balance, and financial
statement information, it does not do so.

To illustrate the impact of this deficiency, Urban    Environment Program financial data is
initially taken from source documents and manually entered into either the Housing Guaranty
Portfolio Management System (HGPMS), the Cash Journal, or the New Management System
(first entry). These three agency developed financial systems then print reports from which an
             accountant extracts accounting data and prepares a journal voucher (second entry).
The data is then manually entered into �2of �(2 locally-developed Lotus l-2-3 spreadsheets
which represent the Urban and Environment Program’s general ledgers (third entry).
Financial information from the �l1general ledgers must be then be manually recorded into
trial balances--one for each general ledger (fourth entry). The balances from the trial balances
are then manually compiled into a consolidated working trial balance for the Urban and
Environment Program (fifth entry). The summarized balances from the consolidated working
trial balance are then manually recorded in           consolidated working trial balance (sixth
entry). Finally, these balances are incorporated into          financial statement (seventh
entry).

Overall, the manual compilation of account balances from the 32 credit program general
ledgers into          financial statements is labor-intensive and inefficient. It also increases
the time and resources needed to generate financial statement information. Further, the
repeated entry of financial data increases the risk of errors and the amount of audit testing
needed to determine whether              financial statements are fairly presented. These risks
could be reduced and the manual compilation of account balances eliminated if               had
an effective and integrated financial management system that met federal financial
management system requirements.

     Financial Statement Information Can

     Not Be Oueried at the Transaction Level


The Joint Financial Management Improvement Program requires a core financial management
system, which can be queried to present specific detailed data as requested, and which allows
users to design reports and extract files that meet their specific requirements. The Program
also requires a financial system that provides easy access to historical files for comparative,
analytical, and trend information. OMB Circular A-l 27 requires data to be entered into the
Standard General Ledger at the transaction level. Accordingly, an effective financial
management system which allowed                data to be queried from different angles would
be beneficial to         managers and would facilitate the development of more useful
financial information.

However, credit program-related data which appears in                financial statement can not
be electronically queried at the transaction level or against prior year information. These two
deficiencies make it difficult for         managers to interpret and use credit program-related
information that is presented in            financial statements.

To illustrate, since summary credit program           not transaction data-is used to prepare
          financial statements, credit program-related data reported in the financial statements
cannot be electronically queried to present either individual general ledger account balances or
specific transaction totals. Further, since prior year financial information is not integrated
with current year financial information, queries to compare prior and current year financial
information also cannot be electronically generated. Without the ability to query financial
information, the usefulness of the information is reduced.



                                               10
      Use of Locally Developed Lotus l-2-3
      Spreadsheet Creates Data           Risks

Credit program general ledgers and financial reports are prepared manually using Lotus �2�2l
spreadsheets. The heavy reliance on these spreadsheets at both the general ledger and
financial reporting levels increases the risk of unauthorized data changes and inadvertent or
malicious damage to data. Accordingly, the use of these spreadsheets creates significant data
integrity risks and increases the risk that credit program financial information may not be
reliably reported on            financial statement.

These risks exist because personal spreadsheet systems are not designed to provide a full
range of data protection capabilities. For instance, these systems are vulnerable to inadvertent
alteration or destruction of data because the user could mistakenly alter or erase data or
change the program. Intentional acts by a disgruntled employee are also a danger.

Near Term Improvements Are Possible
        has identified financial management system deficiencies, including some credit
program deficiencies, as material control weaknesses in its annual reports under the Federal
Managers’ Financial Integrity Act (Integrity Act). For example,           has reported the lack
of an effective integrated financial management system as a material weakness since 1988 and
has reported since 1993 credit program-related material weaknesses concerning data entry
controls that have not been implemented and a general ledger system that has not been
maintained.

In order to correct the above deficiencies,          is planning to implement in the year 2001 a
core financial management system, which will provide an integrated general ledger system.
        is also planning to eliminate several credit program-related financial systems as it
moves to outsource loan transaction processing to a private contractor. However, this
outsourcing will not eliminate           requirement to maintain accounting information and
incorporate credit program financial results into            financial statements.

Although           has a long-term plan to address the weaknesses in its credit programs,
term actions also might improve controls, reduce the resources required to generate financial
information, and increase the reliability of the information. At least two near-term
alternatives could be considered. First,          could consider linking its numerous informal
spreadsheets so that one or a few systems could automatically maintain multiple general
ledgers and automatically generate trial balances and consolidated trial balances. Second,
inexpensive, commercially available off-the-shelf software packages called personal
accounting applications are readily available and might be adaptable to perform general ledger
and trial balance functions. These packages can be purchased at any software store and are
used by small businesses to perform accounting functions. Such a software package might be
able to integrate the credit program’s numerous general ledgers and to automatically generate


                                               11

financial reports, including tria balances and              working trial balances for each
credit program.

Although we identified two alternatives, others may also exist. In addition, we have not
conducted an investment analysis, which should be performed before deciding whether a
term alternative should be implemented, and if so, which alternative. If implementation of a
near-term alternative is cost effective, it would increase          efficiencies by reducing
the number of manual data entries and minimizing current barriers to the production of
financial statement information for the credit programs. Reducing the labor-intensive process
could also help achieve important             staffing goals.     recently determined that it
needs to reallocate resources away from financial management functions to improve its ability
to implement its core development assistance activities. Reducing its reliance on inefficient
labor-intensive manual accounting functions could contribute to this goal.

     Recommendation No. 1: We recommend that the Chief Financial Officer perform
     an investment analysis of near-term alternatives to determine whether they offer a
     cost-effective way to strengthen controls over credit program general ledgers,
     facilitate the generation of credit program financial reports, and reduce inefficient,
     labor-intensive manual data entry requirements.


Management Comments and Our
The Acting Chief Information Officer and the Acting Chief Financial Officer stated that they
found the report to be informative and agreed, for the most part, with the audit report’s
findings and recommendation. However, with regards to the recommendation to perform an
investment analysis, they stated that they thought a better approach to addressing the
deficiencies would be to migrate the credit program general ledgers to the AWACS general
ledger, creating one general ledger system for the Agency. Regarding the fragmented credit
program systems and unnecessary duplicate transaction entries, they stated that until the
agency has a new core financial system to replace AWACS, some inefficiencies in entering
data can not be resolved.

We agree that one general ledger for the Agency would be beneficial but until an investment
analysis has been performed and other alternatives explored, there is no assurance that
           decision represents the best alternative to reduce the barriers listed in the audit
report (e.g., strengthen controls over credit program general ledgers, facilitate the generation
of credit program financial reports, and reduce inefficient, labor-intensive manual data entry
requirements). Accordingly, we continue to recommend that                 perform an investment
analysis to determine whether its decision is the most appropriate.     Such   an investment
analysis does not have to be a lengthy exercise, but it should be performed (1) in accordance
with            guidelines and (2) in relation to the size of the credit program’s financial
managment systems.


                                                 12
        management also stated that the control environment will be enhanced since credit
servicing will be outsourced, reducing audit risk. We agree with this statement and support
          efforts to minimize risk and increase efficiencies in the credit programs.




                                              13

                                                                                 APPENDIX
                                                                                  Page 1 of 2




                                   SCOPE AND

                                  METHODOLOGY



Scope
Our audit of the process used by        to develop financial statement information for its
credit programs covered          June 30, 1998 interim financial statements and included the
financial management systems used to track the following five credit programs:

     ��   Direct Loan Program
          Urban and Environment Program
     ��   Micro and Small Enterprise Development Program
     ��   Ukraine Export Credit Insurance Program
     ��   Israeli Loan Guarantee Program

The audit also included the data flow from credit program source documents to the general
ledger account balances that were recorded in           interim financial statements.

Our audit did not examine whether credit program information had been presented fairly in
the interim           statements nor did it determine the accuracy of any account balances.
Further, our audit was limited to describing the data flow through credit program-related
financial management systems. Accordingly, the audit did not include a review of Loan
Management Division’s internal controls over the preparation of credit program-related
financial statement information.

Our audit      conducted from October 5, 1998 to December 3, 1998 in accordance with
generally accepted government auditing standards. Audit fieldwork was primarily conducted in
the Office of Financial Management’s Loan Management Division at

Methodology

To determine how            developed financial statement information for its credit programs,
we held discussions with Loan Management and Global Bureau officials. We then traced two
credit program line items from            interim (June 30, 1998) financial statements to
supporting general ledger balances. The purpose of our tracing was not to audit the line item
balances, but rather to use the information to identify the financial management systems that
                                                                                   oX��e�F e
                                                                                     I wF 2 of 2

generate the balances. The two line items, “Fund Balance with Treasury” totaling 6�-72 billion
and “Credit Program Receivables” totaling 6,-(2 billion, were selected by the Office of
Financial Audits based on their materiality to          interim financial statements.

We performed our audit by tracing credit program line items from                interim financial
statements to a Consolidated Statement of Financial Position. Balances listed in the
Consolidated Statement of Financial Position were then traced to one of the five supporting
credit program working trial balances. Account balances listed in the working trial balances
were then traced to trial balances and then to the balances listed in credit program general
ledgers. To test the interim balances that were recorded in each credit program general
ledger, we judgmentally selected and traced general ledger transactions to supporting journal
voucher and source documents.

We also identified two alternatives that        improve credit program financial systems in the
near-term. However, we did not perform an investment analysis to determine if the
alternatives represent a cost-effective investment.
                                                                              11N��)�P ))
A




                                                          January



                     Richard     ...........
                           1 �2)2




          have            the          draft report and agree in
      cipai        its findings     rcccmmendation. As wish your
         report                  used     prepare     FY 1997
             statements           No.                            this
         tc be most                  It gives the reader
                 of                         the
                    with      preparing                    of the
            credit

       As regards the recommendation, rather than performing
             analysis as suggested, it is     intention to
  e                  general ledgers    the               ledger­
            1999.  We believe      approach    addressing the
                is         practical in that                 the
         will be                                      for



                              a   financial system to
                            as entering
        cannot be resolved.           we         the,
of credit servicing                      providing
                for     servicing transactions             by
             detail will greatly          the control
         an          audit       and reduce the audit
Therefore, we believe. the need for excessive         testing           the
f      will be greatly reduced­

                   the last                    of         of Results"
                                    statement regarding the
             not             in place an integrated
                                                                11N��)�P ))





        as Report No.               We           to believe
the            for the                         overstated,
             agree                       of a new core
                          further                    of them.


      M/FM, Sandy Owens
               Marvin
             Sandra
                                                                               Appendix III
                                                                               (page 2 of 2)

           Data Flow Through the Ukraine Export Credit Insurance Program


Data flows through the Ukraine Program in a fairly straight forward manner. There are
source documents for administrative expenses, subsidy expenses, claims, and transfers between
the Program and Financing accounts. From these source documents, journal vouchers are
prepared and entered into either a Program or Financing Account general ledger. Trial
balances are prepared for both general ledgers and then the balances from the two accounts
are summarized in a Consolidated Working Trial Balance. The summarized totals from the
Consolidated Working Trial Balance are rolled forward and presented in
Consolidated Working Trial Balance, which summarizes account balances for all of
activities. The summarized account balances listed in            Consolidated Working Trial
Balance are the balances that are reported in          interim financial statement.
                                       APPENDIX IV
                                       (page 1 of 2)



   FLOW OF DATA THROUGH THE
ISRAELI LOAN GUARANTEE PROGRAM



                LINK REPORTS
    (DOWNLOADED DAILY FROM TREASURY)




      LOAN ACCOUNTANT IDENTIFIES

     FEES FROM AMOUNTS COLLECTED





                JOURNAL

               VOUCHERS





           FINANCING ACCOUNT

             GENERAL LEDGER

               (LOTUS l-2-3)





           FINANCING ACCOUNT
              TRIAL BALANCE
               (LOTUS     l-2-3)   �




     ISRAELI LOAN GUARANTEE PROGRAM

          WORKING TRIAL BALANCE

                (LOTUS l-2-3)

                                                                                    Appendix
                                                                                    (page 2 of 2)


                 Data Flow Through the Israeli Loan Guarantee Program


Data flows through the Israeli Program in a fairly straightforward manner. As there have yet
to be any claims or expenses to pay, the program’s transactions have only involved the
collection of principal, interest, and loan guarantee fees. Information on amounts collected
for the Program are downloaded from Treasury’s             Link System. An analyst then
manually calculates how much of the amount collected represents principal, interest, and fee
income. Based on the analyst’s calculations, journal vouchers are prepared to record the
amount of principal, interest, and fee income into the Program’s general ledger.

At the end of a reporting period, a trial balance is prepared based on the balances listed in the
general ledger. Balances from the trial balance are then rolled forward and presented in
           Consolidated Working Trial Balance, which summarizes account balances for all of
           activities. The summarized account balances listed in             Consolidated
Working Trial Balance are the balances that are reported in             interim financial
statement.
                                                                                 Appendix V
                                                                                (page 4 of 6)


           Data EDP1F Through the Urban        Environment Guaranty Program


The flow of data through the Urban and Environment (U&E) Program is the most
complicated of           five credit program. Financial data comes from several different
source documents and financial systems, but in the end, all of U&E’s financial information is
recorded in one of 13 general ledgers. One general ledger is kept for the Liquidating
Account, 11 general ledgers are kept for the Program Account, and one general ledger is kept
for the Financing Account.

At the end of each reporting period, trial balances are prepared for each of the 13 general
ledgers. Account balances from the 11 Program trial balances are rolled forward and
summarized in a Consolidated Program Account Working Trial Balance and then the account
balances are combined with account balances from the Liquidating and Financing Accounts’
Trial Balances in a Consolidated Working Trial Balance for the U&E Program. The
summarized balances from the Consolidated U&E Working Trial Balance are then rolled
forward and presented in           Consolidated Working Trial Balance, which summarizes
account balances for all of           activities. The summarized account balances listed in
          Consolidated Working Trial Balance are the balances that are reported in
interim financial statement.

U&E financial information comes from several different source documents and financial
systems. To illustrate, financial information for the Program is generated by four systems:
(1) the Housing Guaranty Portfolio Management System (HGPMS), (2) the Cash Journal, (3)
the New Management System, and (4) the FACS. There are 12 different source documents
that are manually entered into these four systems:

HGPMS:        (1) Riggs National Bank Control Log, (2) Treasury Ca$h Link Reports, (3)
              Loan Authorization Documents, (4) Loan Agreements, and (5) Bilateral
              Agreements;

c445:         (1) U&E Payroll Distribution Schedule, (2) SF 1097s (Voucher and Schedule to
              Effect Correction of Errors), and (3) extracted FACS data;

              (1) SF 1034s (Public Voucher for Purchases and Services Other Than
              Personal); and

FACS:         (1) Electronic payment schedules, (2) Mission Accounting and Control System
              U-l 0 1 Reports, and (3) Daily Wire Transfer Reports from Riggs National
              Bank.
                                                                                  Appendix I
                                                                                 (page 5 of 3E


In addition to the DXPabove source documents, two documents (i.e. TFS
Appropriation Account Ledger Reports and SF                     of Transactions), which are not
entered into one of the four automated systems, also provide financial information for the
U&E Program. Accordingly, financial information comes from 4 different systems and 14
different source documents.

Regarding the TFS 6653s and            journal vouchers are prepared based on the transactions
listed in these documents and then the transactions are posted to the appropriate U&E general
ledger.

Regarding the U&E-related financial management systems, the following paragraphs describe
how data flows through each of the four systems before the transactions are entered into one
of the 13 U&E general ledgers.

HGPMS:	    As previously listed, HGPMS contains financial and loan information from five
            primary sources. Each of these source documents is entered into HGPMS by the
           Loan Management Division. On a monthly basis, Loan Management generates a
                      Receivables Report from HGPMS. The Receivables Report provides a
           variety of financial information related to the U&E Liquidating Account (e.g., fee
            income, interest receivable, late charges, etc.). Journal vouchers are prepared
           manually using financial information in the Receivables Report and then the
           journal voucher transactions are manually posted to the liquidating account’s
           general ledger.

FACS:	     As previously listed, FACS contains financial information from three primary
           sources. Data from these three sources is entered into FACS and then FACS
           generates two reports (a FACS Extract Report and a Cash Disbursements Report,
           which shows U&E Program-related              of charge). The FACS Extract Report
           is automatically posted to the Cash Journal system, but a journal voucher has to
           be manually prepared based on the data in Cash Disbursements Report and then
           manually recorded in the appropriate U&E general ledger.
                                                                           Appendix V
                                                                          (page 6 of 6)

(Cash Journal):

     The Cash Journal system contains data posted from the FACS Extract Report. It
     also contains U&E Program-related information from a Payroll Distribution
     Schedule prepared by the Payroll Office and SF           which record transfers
     between appropriations. On a monthly basis, a Cash Journal Report and an �����
     Report” are generated by the Cash Journal system. The two reports are similar,
     but the Cash Journal Report is more detailed and indicates whether transactions
     are expenses or advances. Journal vouchers are prepared based on the transactions
     listed in the Cash Journal and FNNNNlF reports and then recorded in the appropriate
     U&E general ledger.

     SF         which document credit-program-related expenses, are entered into
     NMS. On a monthly basis, an NMS report is generated which shows U&E-
     related claim payments and operating expenses (e.g. travel advances and rent).
     Journal vouchers are prepared based on the disbursements listed in the NMS
     report and then the transactions are manually posted to the appropriate U&E
     general ledger.
                                                                                  Appendix VI
                                                                                  (page 2 of 2)


                       Data Flow Through the Direct Loan Program


Financial information for the Direct Loan Program primarily comes from reports that are
received on a daily basis from Treasury’s         Link System. If loan data in a       Link
Report is related to a Post-Credit Reform Loan (i.e. 1992 and after), then an analyst calculates
the amount collected into principal and interest payment amounts; journal vouchers are
manually prepared; and the transactions are entered into the Debt Reduction Financing
Account’s (i.e. Financing Account) general ledger. A trial balance is prepared using the
general ledger account balances at the end of a reporting period and then the balances are
rolled forward to a Consolidated Direct Loan Program Working Trial Balance.

If information from the Ca$h Link Reports is related to a Pre-Credit Reform Loan
then the Report is forwarded to an analyst who separates the amount collected into principal,
interest, and fees. Based on the analyst’s calculations, amounts representing principal,
interest, and fees are manually entered into the Loan Accounting Information System (LAN).
On a quarterly basis, LAIS electronically generates a 17 Report” which provides a listing of
loan transactions. After converting the “17 Report” into a Lotus spreadsheet, loan transactions
are recorded in journal vouchers and then entered into the Economic Assistance Loan
Liquidation Account’s (i.e. Liquidation Account) general ledger. At the end of a reporting
period, a trial balance is prepared using the general ledger account balances and then the
balances are rolled forward to a Direct Loan Program Consolidated Working Trial Balance.

The Consolidated Working Trial Balance summarizes the account balances from the
Liquidation Account general ledger and the Financing Account general ledger. The
summarized balances from the Consolidated Working Trial Balance are then rolled
and presented in          Consolidated Working Trial Balance, which summarizes account
balances for all of         activities. The summarized account balances listed in
Consolidated Working Trial Balance are the balances that are reported in          interim
financial statement.
                                                                              Appendix I))
                                                                               (page 2Pof 2E


                                Data Flow Through the
                    Micro     Small Enterprise Development Program


The flow of information through the Micro    Small Enterprise Development Program
(MSED) is fairly straight forward. MSED-related data comes primarily from
generated TFS                          Advices-of-Charge,       1 Reports, Notices of
Payment Due, and NMS reports showing claim obligations. Information from these sources is
entered into one of MSED’s four general ledgers: (1) Liquidating Account general ledger, (2)
Financing Account (Direct Loans) general ledger, (3) Financing Account (Guaranteed Loans)
general ledger, and (4) Program Account general ledger.

Regarding claims, copies of filed claims are issued to both the Office of Financial
Management and the Loan Management Division. The Office of Financial Management
enters the claim obligations into the New Management System             and Loan Management
enters the claims obligations into a manually-kept “off-the-cuff’ schedule. On a monthly
basis, a Claims Obligation Report is run on � �N� Loan Management then compares the
claim obligations listed on the NMS report with the obligations listed in its manually-kept
schedule. After reconciling the NMS report and Loan Management’s schedule, claim
obligations are recorded in journal vouchers and then entered into the appropriate MSED
general ledger.

Summary balances from each of MSED’s general ledgers are rolled forward to trial balances
and then entered into either a (1) Working Trial Balance for the Revolving Fund (which
includes the Liquidating Account, the Direct Loan Financing Account, and the Guaranteed
Loan Financing general ledgers or (2) a Working Trial Balance for the General Fund (which
includes 11 Program Account general ledgers that are prepared based on annual
appropriation). Consolidated and summarized totals from the Revolving Fund and General
Fund Working Trial Balances are then rolled forward and summarized in an MSED
Consolidated Working Trial Balance.

The summarized balances from the Consolidated Working Trial Balance are rolled forward
and presented in         Consolidated Working Trial Balance, which summarizes account
balances for all of        activities. The summarized account balances listed in
Consolidated Working Trial Balance are the balances that are reported in         interim
financial statement.
